Tasha J. Bahal

December 30, 2020

+1 617 526 6106 (t)
+1 617 526 5000 (f)
tasha.bahal@wilmerhale.com

VIA Hand Delivery and ECF
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Mike Brown, Acting Warden, Petitioner v. Ervine Davenport, No. 20-826

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned matter was docketed on
December 18, 2020, and any response is currently due on January 19, 2021. Pursuant to Rule
30.4, Respondent Ervine Davenport respectfully requests a 30-day extension of time up to and
including Thursday, February 18, 2021 within which to file a response to the petition.
We are requesting an extension due to the press of other client business, the holiday
season, and disruptions caused by the COVID-19 pandemic. This is Respondent’s first request
for an extension of time.
Thank you for your consideration of this request.

Respectfully submitted,

/s/

cc:

Tasha J. Bahal
Tasha J. Bahal

Dana Nessel, Michigan Attorney General
Fadwa A. Hammoud, Solicitor General and Counsel of Record
Jared Schultz, Michigan Assistant Attorney General

